                   July 7, 1999

                   A. KEITH STRANGE
                   VICE PRESIDENT, PURCHASING AND MATERIALS

                   SUBJECT:	 Contracting Concerns Identified at the
                             Wilmington, Delaware Vehicle Maintenance
                             Facility Management Advisory Report Number
                             CA-MA-99-001

                   This report presents the results of our review of contracting
                   concerns at the Wilmington Delaware Vehicle Maintenance
                   Facility. We conducted this review at the request of
                   Congressman John M. McHugh, Chairman, Subcommittee
                   on the United States Postal Service (USPS).

Results In Brief   The review identified that opportunities exist for
                   improvement of contracting practices at the Philadelphia
                   Purchasing and Materials Service Center and maintenance
                   control procedures at the Vehicle Maintenance Facility in
                   Wilmington, Delaware.

                   We identified concerns with the monitoring of work
                   performed by the contractor. Specifically; the contractor’s

                   •	   Performance was not formally evaluated; and
                   •	   work was not thoroughly checked for acceptability by
                        the Vehicle Maintenance Facility staff.

                   We offered management two suggestions that may result in
                   increased efficiency and enhanced quality assurance as
                   well as yield potential monetary savings.

Summary of         Management indicated that they generally agreed with and
Management         have planned or taken action to address the two
Comments           suggestions in this report. We have summarized these
                   responses in the report and included the full text of the
                   comments in the Appendix.

Evaluation of      Management's comments were responsive to our
Management's       suggestions, and the corrective actions implemented or
Comments           planned should increase efficiency and enhance quality
                   assurance as well as yield potential monetary savings.
Contracting Concerns Identified at the Wilmington                                 CA-MA-99-001
 Delaware Vehicle Maintenance Facility




Background                     The purpose of the Vehicle Maintenance Program is to
                               ensure the safe, dependable and economical performance
                               of vehicles owned by USPS. Achieving this objective
                               requires an emphasis on preventive maintenance rather
                               than on repair of vehicle problems. Preventive maintenance
                               and inspections consist of a bumper to bumper visual
                               inspection, lubrication, and repair or replacement of items
                               found to be defective. Preventive maintenance and
                               inspections are conducted at prescribed intervals.

                               The Vehicle Maintenance Facility in Wilmington has 11
                               mechanics responsible for conducting preventive
                               maintenance and inspections on 611 vehicles located
                               throughout the state of Delaware. The vehicles are serviced
                               through either in-house mechanics, a maintenance ordering
                               agreement with an outside contractor, or local garages used
                               by individual Postmasters. The Purchasing and Materials
                               Service Center in Philadelphia, Pennsylvania awarded the
                               vehicle maintenance ordering agreement on January 5,
                               1998, on behalf of the Wilmington Vehicle Maintenance
                               Facility. The ordering agreement was awarded because the
                               Vehicle Maintenance Facility could not meet its demand for
                               services.

Objective, Scope, and          The objective of our review was to review contracting
Methodology                    actions for vehicle maintenance at the Wilmington Vehicle
                               Maintenance Facility. During our review, we visited
                               both the Vehicle Maintenance Facility and the Processing
                               and Distribution Center located in Wilmington, Delaware.
                               We also visited the Purchasing and Materials Service
                               Center in Philadelphia, Pennsylvania, which awarded the
                               vehicle maintenance ordering agreement for the Wilmington
                               Vehicle Maintenance Facility. We interviewed employees at
                               the sites visited who participated in the vehicle maintenance
                               contracting process. We reviewed vehicle maintenance
                               ordering agreement 412735-98-R-0837 between the Vehicle
                               Maintenance Facility and the contractor providing
                               mechanical services. In addition, we reviewed other
                               relevant documentation. We conducted the review from
                               September 1998 to February 1999, in accordance with the
                               President's Council on Integrity and Efficiency, Quality
                               Standards for Inspections. We discussed our conclusions
                               and observations with appropriate management officials and
                               included their comments, where appropriate.

                                                     2
                                          Restricted Information
Contracting Concerns Identified at the Wilmington                                  CA-MA-99-001
 Delaware Vehicle Maintenance Facility




Observations

Formal Evaluation of           A formal evaluation of the contractor’s performance was not
the Contractor's               completed as required. USPS Handbook AS-707A, 4.5.1,
Performance                    requires that approximately 90 days after an ordering
                               agreement start date, a vehicle maintenance ordering
                               agreement service inquiry must be requested by the
                               contracting officer and conducted by the contracting officer's
                               representative. The representative is required to conduct a
                               service inquiry and complete a service inquiry form. The
                               inquiry form is used to document the contractor's
                               performance, improve any performance problems, and to
                               serve as a record in considering a contractor for future
                               USPS contracting opportunities. The contracting officer
                               should have ensured that the contracting officer's
                               representative completed the inquiry. However, the
                               contracting officer did not receive a completed inquiry from
                               the contracting officer's representative. A completed inquiry
                               should accurately and fairly reflect the contractor's
                               performance under the ordering agreement.

Acceptability of Work          The Vehicle Maintenance Facility does not have formal
Performed                      procedures to inspect vehicles once they are returned from
                               the contractor's facility to ensure they were properly
                               serviced. We questioned the Vehicle Maintenance Facility
                               manager on how he ensures that the work was actually
                               performed. The manager stated that he relies on the
                               integrity of the contractor and may periodically inspect the
                               vehicles.

                               A regularly scheduled inspection would help determine
                               whether the contractor properly performed all required work
                               and that the work is of an acceptable quality and
                               workmanship. At the Wilmington Vehicle Maintenance
                               Facility, the manager was designated as the contracting
                               officer's representative, and thus the person responsible for
                               performing these inspections. Instituting a formal set of
                               verification procedures ensures USPS receives quality
                               services.

Suggestions                    1. The Manager, Materials, strengthen contracting
                                  practices at the Purchasing and Materials Service
                                  Center in Philadelphia by ensuring that service inquiries

                                                     3
                                          Restricted Information
Contracting Concerns Identified at the Wilmington                                 CA-MA-99-001
 Delaware Vehicle Maintenance Facility


                                   for vehicle maintenance ordering agreements be
                                   completed within 90 days of the start of an ordering
                                   agreement.

                               2. The District Manager of Customer Services and Sales,
                                  South Jersey District, strengthen quality assurance
                                  procedures related to vehicle maintenance ordering
                                  agreements by directing the Vehicle Maintenance
                                  Facility manager to institute a formal process for
                                  verifying that contracted vehicle maintenance work is
                                  acceptably performed.

Management                     Management generally agreed with our suggestions and
Comments                       stated the following:

                               Suggestion 1. A Vehicle Maintenance Service Inquiry was
                               mailed to the contracting officer's representative. Although
                               the Purchasing and Materials Service Center did not receive
                               a formal response to the Vehicle Maintenance Service
                               Inquiry, there were no reports of unsatisfactory work during
                               the term of the ordering agreement. Additionally, the
                               Vehicle Maintenance Facility manager advised that he had
                               been very pleased with the contractor’s performance. Also,
                               the Purchasing and Materials Service Center will follow-up
                               to ensure replies to Vehicle Maintenance Service Inquiries
                               are received.

                               Suggestion 2. The Allegheny Area is forming a workgroup
                               to develop a process that will make spot checks on
                               contractor's performance and be implemented at all Area
                               Vehicle Maintenance Facilities.

Evaluation of                  Management's comments are responsive and the actions
Management's                   planned or taken address the issues.
Comments

                               We appreciate the cooperation and courtesies extended to
                               our staff during this review. If you have any questions or
                               would like any further information concerning our review,
                               please contact Ms. Kim H. Stroud, Director, Contracts, or
                               me at (703) 248-2300.


                                  //Signed//
                               Sylvia L. Owens
                               Assistant Inspector General

                                                     4
                                          Restricted Information
Contracting Concerns Identified at the Wilmington                  CA-MA-99-001
 Delaware Vehicle Maintenance Facility


                                 for Revenue/Cost Containment
                               Attachment

                               cc:	 Alan B. Kiel
                                    John R. Gunnels




                                                     5
                                          Restricted Information
Contracting Concerns Identified at the Wilmington                  CA-MA-99-001
 Delaware Vehicle Maintenance Facility




Major Contributors to
This Report




                                                     6
                                          Restricted Information
Contracting Concerns Identified at the Wilmington                  CA-MA-99-001
 Delaware Vehicle Maintenance Facility




                                                     2
                                          Restricted Information
